APPLICATION AND
SOLICITATION
DISCLOSURE
SPURS REWARDS MASTERCARD LEVEL I
SPURS REWARDS MASTERCARD LEVEL II
SPURS REWARDS MASTERCARD LEVEL III
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Spurs Rewards Mastercard Level I

2.90% Introductory APR for a period of six billing cycles.
After that, your APR will be
based on the Prime Rate.

9.65%. This APR will vary with the market

Spurs Rewards Mastercard Level II

5.90% Introductory APR for a period of six billing cycles.
After that, your APR will be
based on the Prime Rate.

12.65%. This APR will vary with the market

Spurs Rewards Mastercard Level III

8.90% Introductory APR for a period of six billing cycles.
After that, your APR will be
based on the Prime Rate.
APR for Balance Transfers

15.25%. This APR will vary with the market

Spurs Rewards Mastercard Level I
5.90%
Spurs Rewards Mastercard Level II
8.90%
Spurs Rewards Mastercard Level III
11.90%

APR for Cash Advances

Spurs Rewards Mastercard Level I
2.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.65%. This APR will vary with the market based
on the Prime Rate.
Spurs Rewards Mastercard Level II
5.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 12.65%. This APR will vary with the market
based on the Prime Rate.
Spurs Rewards Mastercard Level III
8.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 15.25%. This APR will vary with the market
based on the Prime Rate.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04200068-MXC10-C-3-111720 (MXC101-E)

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

1.10% of each transaction in U.S. dollars
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Loss of Introductory APR:
We may end your Introductory APR for purchases and cash advances and apply the prevailing non-introductory APR if
you are 60 days late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: January 15, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Spurs Rewards Mastercard Level I, Spurs Rewards Mastercard Level II and Spurs
Rewards Mastercard Level III are secured credit cards. Credit extended under this credit card account is secured
by various personal property and money including, but not limited to: (a) any goods you purchase with this
account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of Shares, (c)
all shares you have in any individual or joint account with the Credit Union excluding shares in an Individual
Retirement Account or in any other account that would lose special tax treatment under state or federal law, and
(d) collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Rush Fee:
$25.00 overnight.
Statement Copy Fee:
$2.00.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

04200068-MXC10-C-3-111720 (MXC101-E)

